Report No. DODIG-2012-071            April 10, 2012




    DoD's Management of the Redistribution
Property Assistance Team Operations in Kuwait
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AWRDS                         Army War Reserve Deployment System
OIG                           Office of Inspector General
PBUSE                         Property Book Unit Supply Enhanced
RPAT                          Redistribution Property Assistance Team
TPE                           Theater Provided Equipment
                                          INSPECTOR GENERAL
                                           DEPARTMENT OF DEFENSE
                                           4800 MARK CENTER DRIVE
                                        ALEXANDRIA, VIRGINIA 22350-1500



                                                                                                 April 10, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               COMMANDER, U.S. CENTRAL COMMAND
                 COMMANDER, U.S. ARMY CENTRAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	DoD’s Management of the Redistribution Property Assistance Team Operations in
          Kuwait (Report No. DODIG-2012-071)

We are providing this report for your information and use. This is the first in a series of reports
on Redistribution Property Assistance Team (RPAT) operations in Kuwait. Our objective was to
determine whether DoD effectively managed RPAT operations in Kuwait to ensure DoD was
prepared to handle the anticipated amount of materiel (equipment) related to the drawdown from
Iraq. For this report, we reviewed the process for turning in equipment at the Camp Virginia,
Kuwait RPAT yard, along with verifying selected documentation related to the turn-in process.
Our second report will discuss the subsequent wholesale property accountability and data
management of the equipment.

Camp Virginia RPAT officials effectively managed RPAT operations in Kuwait to accomplish
their primary mission of supporting the drawdown of U.S. forces from Iraq. Specifically, Camp
Virginia RPAT officials relieved units of accountability for their Theater Provided Equipment
(TPE), before redeploying1 to their home stations. During our review, we provided RPAT
officials with our observations based on concerns with the 4-corners process, “frustrated”
equipment,2 and security controls. We commend Camp Virginia RPAT officials for
implementing corrective actions throughout the audit.

Background
In 2008, the United States and the Republic of Iraq agreed that all U.S. forces would withdraw
from Iraq by December 31, 2011. The transition from Operation Iraqi Freedom to Operation
New Dawn on September 1, 2010, marked the official end to combat operations by U.S. forces in
Iraq. Operation New Dawn initiated the redeployment of thousands of U.S. forces and their
equipment. The 402nd Army Field Support Brigade established the RPAT operations in Iraq and
Kuwait to facilitate and assist the redeployment of the U.S. forces.

1
  DoD defines redeploying as the transfer of forces and materiel to support another Joint Force Commander’s
operational requirements or to return personnel, equipment, and materiel to the home or demobilization station for
reintegration or out processing.
2
  Frustrated equipment is equipment that arrives at the RPAT yard with incomplete or incorrect documentation, such
as a DD Form 1348-1A, “Issue Release/Receipt Document.” The equipment is moved to a separate storage lot until
the unit can correct the deficiencies.

                                                        1

Overall Mission of the RPAT
The RPAT mission was to facilitate the turn-in of all excess major end item (Class VII) TPE,
improve property accountability, and enable asset visibility of the equipment received. The
RPAT allowed all redeploying U.S. forces to have their property book cleared by the appropriate
authority to provide immediate relief of accountability and turn-in of TPE.

Mission of the Camp Virginia RPAT
The mission of the Camp Virginia, Kuwait RPAT was to relieve self-redeploying units3 of their
TPE, clear their property book, and prepare them to redeploy to their home stations. The
402nd Army Field Support Brigade set up the Camp Virginia RPAT near the Iraq-Kuwait border
to prevent the self-redeploying units from driving through Kuwaiti cities. The Camp Virginia
RPAT did not process the same equipment as the RPATs in Iraq. The self-redeploying units
turned in the majority of their equipment in Iraq before driving to Kuwait to turn in their TPE at
Camp Virginia. The 364th Expeditionary Sustainment Command, the 553rd Combat Sustainment
Support Battalion, and the 541st Combat Sustainment Support Battalion shared day-to-day
operations at Camp Virginia. Figure 1 depicts units arriving at Camp Virginia in October 2011.

                                        Figure 1. Unit Arriving at the
                                           Camp Virginia RPAT




                           Source: DoD Office of Inspector General (OIG)

Process for Turning In Equipment at Camp Virginia
The process for turning in equipment began when self-redeploying units arrived at Camp
Virginia. The self-redeploying units turned in their remaining items that were required to
preserve life and safety (such as their ammunition, medical supplies, individual body armor, and
selected expendable items4). After the unit successfully turned in their remaining items,
contractor personnel inspected the units’ TPE to verify that the serial number, the national stock
number, and quantity of the items listed on the DD Form 1348-1A, “Issue Release/Receipt
3
  We defined “self-redeploying units” as those units that drove their vehicles from Iraq to Kuwait for turn-in at the

Camp Virginia RPAT. 

4
  Expendable items are items that are consumed or lose their identity, such as rations or meals ready-to-eat.



                                                           2

Document,” (DD Form 1348) matched the equipment being turned in. RPAT officials required
units to correct deficiencies with their DD Forms 1348 before RPAT officials relieved the units
of property accountability. Once the unit resolved the deficiencies identified during inspection,
the RPAT officials relieved the unit of property accountability, clearing their property book in
the Property Book Unit Supply Enhanced (PBUSE) system.5

Next, RPAT officials de-installed (removed) equipment from the vehicles and recorded the
equipment on the wholesale accountability record. Contractor personnel entered the required
information into the Army War Reserve Deployment System (AWRDS)6 for visibility. AWRDS
automatically updates the Logistics Modernization Program system,7 which is the Army’s
official record for wholesale asset accountability.

RPAT Officials Accomplished Their Primary Mission of
Relieving Units of Accountability
Camp Virginia RPAT officials effectively managed the RPAT operations to accomplish their
primary mission of supporting the drawdown of U.S. forces from Iraq by relieving units of
accountability for their TPE, before redeploying to their home station. As a result, from
October 18, 2011, through December 31, 2011, Camp Virginia RPAT officials relieved units of
accountability for approximately 2,300 vehicles and 24,600 pieces of non-rolling equipment. In
addition, approximately 26,000 U.S. forces redeployed to their home stations from Camp
Virginia before the December 31, 2011, deadline.

During our review, we provided RPAT officials with our observations to address concerns with
the 4-corners process, frustrated equipment, and security controls. We commend Camp Virginia
RPAT officials for implementing corrective actions based on our communication throughout the
audit. Additionally, we commend the officials for taking actions to improve the RPAT
operations.

Concerns With the 4-Corners Process Communicated to RPAT
Officials
On October 21, 2011, we provided RPAT officials with our observations addressing concerns
with the 4-corners process. The 4-corners process began when self-redeploying units arrived at
the Camp Virginia RPAT. Members of the unit downloaded their ammunition while their
commanders attended a briefing of the RPAT process. Upon completion of the briefing, the unit
downloaded their expendable items and medical equipment. After the 4-corners process, unit
personnel staged their vehicles by type and size, provided their DD Forms 1348 to Camp
Virginia RPAT officials responsible for relieving the units of accountability in PBUSE, and then



5
  PBUSE is a web-based, automated system that is used to account for and provide Army-wide visibility of

equipment at the unit level. 

6
  AWRDS is an automated system designed to assist in the accountability, inventory, maintenance, and transfer of

TPE for redeploying units. 

7
  Logistics Modernization Program is an integrated Army system that provides item managers with asset visibility 

and is used to manage the Army’s materiel inventory and maintenance operations.




                                                         3

left the RPAT yard until the next process began. The PBUSE contractor made copies of the
DD Forms 1348 and verified that each piece of equipment had a shipping address.

During our observations of the 4-corners briefing held on October 18, 2011, RPAT officials
provided the briefing in an open tent near running generators, which adversely affected verbal
instructions. In addition, several individuals asked the speaker to repeat the information or to
speak louder. During the subsequent accountability inspection process, unit personnel seemed
unaware of the requirement to turn in a copy of their DD Forms 1348 after the 4-corners process,
which caused delays and confusion in the overall processing of equipment.

We communicated with RPAT officials on October 21, 2011, to increase the effectiveness of the
briefing conducted before the 4-corners process and increase the efficiency of Camp Virginia
RPAT operations. Specifically, we suggested that RPAT officials provide unit personnel with a
tangible handout detailing the actions required to ensure successful processing through the RPAT
yard. We also suggested that the units could use the handout in conjunction with the verbal
briefing provided by the RPAT officials.

Camp Virginia RPAT officials immediately responded to our suggestions by developing an
information packet of procedures and required documentation, which they disseminated to the
self-redeploying units before the units left Iraq. Camp Virginia RPAT officials stated that they
would collect the DD Forms 1348 after the 4-corners process to mitigate the delays encountered
during subsequent RPAT processes. During our observations of subsequent units arriving at
Camp Virginia and processing through the 4-corners and RPAT yard, we confirmed that the
Camp Virginia RPAT officials provided a tangible handout to unit personnel during the initial
briefing and RPAT officials visually displayed RPAT yard instructions. By implementing these
corrective actions, Camp Virginia RPAT officials increased the efficiency and effectiveness of
the 4-corners briefing.

Concerns With Frustrated Equipment Communicated to RPAT
Officials
On November 8, 2011, we provided RPAT officials with our observations addressing concerns
with frustrated equipment. RPAT officials categorized equipment as frustrated when self-
redeploying units arrived at Camp Virginia without correctly printing or preparing their
DD Forms 1348. Deficiencies that caused self-redeploying units’ equipment to be frustrated
included: (1) data plates did not match the DD Forms 1348, (2) associated equipment was not in
the vehicle, (3) equipment in the vehicle did not have documentation, or (4) units did not arrive
at Camp Virginia with printed DD Forms 1348. RPAT officials moved frustrated equipment to
open lots where they assisted the units in preparing or correcting the applicable paperwork.

RPAT officials stated that from October 18, 2011, through October 25, 2011, only 1 of 12 units
arrived at Camp Virginia with correctly prepared and printed DD Forms 1348. The self-
redeploying unit that arrived with their DD Forms 1348 correctly prepared and printed processed
through the RPAT yard within 4 days. However, using a tracking sheet provided by RPAT
officials, we calculated that from October 2011 through December 2011, on average, it took
10 days for units to process through the RPAT yard. The tracking sheet recorded the date each
unit arrived as well as the dates each unit cleared the RPAT yard. From the tracking sheet, we


                                                4

identified that one unit’s equipment remained in the frustrated lot for up to 47 days before
clearing the RPAT yard. Self-redeploying units with frustrated equipment caused schedule
changes, delays, and additional work and manpower from the PBUSE contractor, who assisted
the units with preparing and printing their DD Forms 1348. As the number of self-redeploying
units processing through the Camp Virginia RPAT increased, the number of frustrated units was
also likely to increase, which would have caused bottlenecks, inefficiencies, and delays in
returning units to their home stations.

To increase the efficiency of the RPAT yard, we communicated with RPAT officials on
November 8, 2011, suggesting that officials provide additional communication to self-
redeploying units in Iraq. Although redeploying units received an overall briefing 180-days
before redeploying, we suggested that U.S. Central Command officials work with
U.S. Forces-Iraq and Camp Virginia RPAT officials to issue further guidance to each of the units
still in Iraq. At a minimum, we suggested that the guidance should stress the importance of
having accurate, complete, and printed DD Forms 1348 before departing Iraq.

During subsequent observations at the RPAT yard, we observed a decrease in the amount of
units arriving at Camp Virginia with frustrated equipment. Specifically, in December 2011, the
frustrated equipment storage lots were virtually empty. RPAT officials stated that teams of
liaison officers from self-redeploying units in Iraq came to Camp Virginia, in advance, to learn
the process and requirements for an efficient turn-in of their equipment. Further, RPAT officials
held daily synchronization meetings that included personnel from each phase of the RPAT
process, members from self-redeploying units that were processing through the RPAT, and the
liaison officers for units scheduled to arrive in the future. The liaison officers and the daily
synchronization meetings enhanced the communication for successful turn-in of TPE and
appeared to reduce the amount of frustrated equipment at Camp Virginia.

Concerns With Security Procedures Communicated to RPAT Officials
We provided RPAT officials with our observations on October 27, 2011, addressing concerns
with security procedures. Although Camp Virginia officials established security procedures for
the RPAT yard to ensure they safeguard sensitive items, we identified potential security
weaknesses. The RPAT yard at Camp Virginia processed and stored equipment and materiel,
which contained advanced military technology that the United States cannot afford to misplace.
Army Regulation 190-16, “Physical Security,” May 31, 1991, states that procedures for
protecting DoD property should include, but are not limited to security guards, physical barriers,
secure containers, badge systems, and security lighting. Additionally, Army Regulation 190-13
“The Army Physical Security Program,” February 25, 2011, states that Army officials should
create a badge system to ensure only authorized personnel are granted access to a facility.

While assessing the Camp Virginia RPAT yard, we identified concerns with the contractor’s
security procedures. Our physical observations did not reveal a serious issue with security
measures; however, we did note some potential weaknesses that could have resulted in the
pilferage of sensitive Government equipment. Although we observed physical barriers, guarded
entrances to the RPAT lots, secure containers, and lighting, we identified an unguarded entrance
to one of the RPAT storage lots. We also identified that one of the RPAT vehicle storage lots
did not have sufficient lighting. Additionally, Camp Virginia officials responsible for security


                                                5

had an access roster of 272 people with authorized unescorted access. However, the officials did
not implement a separate badge system or sign-in roster for those individuals.

Therefore, we communicated with RPAT officials on October 27, 2011, suggesting that Camp
Virginia officials implement additional security procedures at the RPAT yard, to reduce the risk
for pilferage of sensitive Government equipment. Specifically, we suggested that RPAT officials
implement security procedures in the vehicle storage lot that did not have security lighting and at
the unguarded entrance. We also suggested implementing a badge system and a sign-in roster
and securing all entrances to the RPAT.

RPAT officials immediately responded to our suggestions by preparing a detailed plan to
improve the physical security at the RPAT yard. RPAT officials implemented short-term
solutions, including patrolling unguarded vehicle storage lots every hour and increasing the
security personnel’s situational awareness of sensitive items stored at the RPAT. In addition, the
RPAT officials set up cones to impede entry through the unguarded entrance, supplemented
contractor security guards with military guards, and informed the security guards of the potential
physical security threat. Also, officials updated the access roster, removing many individuals no
longer requiring access to the yard and incorporated a badge system. Our observations of the
security measures in December 2011 confirmed that RPAT officials patrolled vehicle storage lots
and implemented a badge system. Although the improved security plan included a requirement
for security lights in all of the vehicle storage lots, our follow up observations indicated that
RPAT officials did not install security lights. However, the enhanced security measures taken by
the RPAT personnel sufficiently strengthened security to decrease the likelihood for pilferage of
sensitive Government equipment.

Actions Taken to Improve RPAT Operations
RPAT officials took actions to improve their operations throughout the audit. Specifically,
RPAT officials provided additional training for contracted inspectors to ensure they could
identify the equipment, began de-installing equipment 24 hours a day, and captured lessons
learned for future RPAT operations. RPAT officials also refined standard operating procedures
and assisted future sustainment forces by developing best practices for future RPAT operations.

Actions Taken to Correct Initial Inspections
RPAT officials took actions to provide additional training to contracted inspectors, which
resulted in more efficient and effective initial accountability inspections. After completing the
turn-in of ammunition and the 4-corners process, the units staged their vehicles for accountability
inspection. The inspectors verified that the serial number, the national stock number, and
quantity of the items listed on the DD Forms 1348 matched the equipment being turned in.
During the accountability inspection process, we observed that contractor personnel could not
initially identify the equipment or locate the data plates with the serial number and national stock
number. As a result, contracted inspectors relied on the self-redeploying unit to identify various
types of equipment and read serial numbers and national stock numbers. To correct this issue,
the contractors took training on various types of equipment and developed posters to use as a
visual aid in identifying the equipment. Our observation of subsequent units processing through
the inspections confirmed that the contractor’s initiative improved the process. Specifically, the



                                                 6

contractors no longer needed assistance from self-redeploying units to identify equipment or to
locate and read the data plates, which decreased the processing time.

Actions Taken to Correct Backlog Related to the De-installation of
Equipment
RPAT officials took corrective actions to decrease the backlog during the operation to de-install
equipment. Once RPAT officials relieved the self-redeploying units of accountability in PBUSE,
they simultaneously de-installed the equipment from the vehicles and brought it onto record in
the wholesale accountability system. Program managers and multiple contractors de-installed
Communications-Electronics Command equipment and basic issue TPE at the Camp Virginia
RPAT yard. We observed three of five contractors that de-installed TPE from vehicles at Camp
Virginia (Figures 2 and 3). Initially, the de-install process was not a 24-hour operation, resulting
in one contractor waiting for another contractor to begin de-installing their equipment. This
created a temporary backlog of vehicles waiting to have the equipment de-installed. To mitigate
the backlog, Camp Virginia RPAT officials began de-installing equipment 24 hours a day on
October 25, 2011, which decreased the delays.

  Figure 2. Equipment De-installation                  Figure 3. Equipment De-installation




  Source: DoD OIG                                       Source: DoD OIG

Self-Initiated Actions to Capture Lessons Learned
RPAT officials captured lessons learned for the pending drawdown of U.S. forces from
Afghanistan. In January 2012, RPAT officials conducted an After Action Review Symposium to
capture RPAT lessons learned, refine standard operating procedures, and assist future
sustainment forces with best practices from the responsible drawdown resulting from Operation
New Dawn. Additionally, on January 16, 2012, and January 19, 2012, Camp Virginia RPAT
officials started two, 10-day RPAT Academy classes and planned to hold at least two more
sessions. The goal of the RPAT Academy was to provide a “world-class” learning environment
capable of sharing RPAT best practices with any U.S forces and ensure that they understand all
functions of the operation to execute or manage RPAT operations in any area of responsibility.
This sharing of knowledge by Camp Virginia RPAT officials should help enable personnel who
may be involved with the eventual drawdown of U.S. forces from Afghanistan.




                                                 7

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provides reasonable assurance that programs are operating as intended, and to evaluate the
effectiveness of the controls. RPAT officials did not always have internal controls in place to
effectively safeguard the advanced military technology processed at the Camp Virginia RPAT
yard. Although we did not identify any serious issues with security measures, we did note some
potential weaknesses, which could result in the pilferage of sensitive equipment. We provided
RPAT officials with our observations on October 27, 2011, detailing our concerns with the
security at the RPAT yard. In response to our suggestions, Camp Virginia RPAT officials took
immediate corrective action to mitigate the potential weaknesses we identified. We believe the
corrective actions sufficiently improved security controls over the Camp Virginia RPAT.

Scope and Methodology
We conducted this performance audit from September 2011 through April 2012 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our audit objectives.

We limited our review to the Camp Virginia RPAT operations. Specifically, to determine
whether DoD effectively managed the RPAT operations, we interviewed officials, obtained and
reviewed documentation, and observed the RPAT process. We also observed and analyzed the
data entry process for relieving the units of accountability.

To accomplish our objectives, we coordinated with or interviewed officials from:

      U.S. Central Command,
      United States Forces-Iraq,
      Army G-4,
      U.S. Army Central,
      U.S. Army Materiel Command,
      Defense Contract Management Agency,
      1st Theater Sustainment Command,
      Army Sustainment Command,
      Communications-Electronics Command,
      TACOM,
      402nd Army Field Support Brigade,
      364th Expeditionary Sustainment Command,
      541st Combat Sustainment Support Battalion,
      553rd Combat Sustainment Support Battalion,
      Army Field Support Battalion-Kuwait,
      Responsible Reset Task Force, and
      RPAT Contractors.



                                                8

To gain an understanding of the RPAT process, we reviewed external RPAT standard operating
procedures, conducted meetings at Camp Arifjan, Kuwait, and observed the Camp Virginia
RPAT operations. During our site visits at Camp Virginia, Kuwait between October 2011 and
December 2011, we observed the RPAT process for 18 of the 85 units that arrived at the Camp
Virginia RPAT yard. At Camp Virginia, we observed the RPAT process from arrival of the self-
redeploying unit, through their relief of accountability, and the subsequent de-installation and
wholesale accountability of the equipment.

To determine whether the Camp Virginia RPAT officials accomplished their primary mission of
relieving units of accountability, we:

      reviewed applicable guidance to determine proper procedures for relieving units of their
       property accountability;
      reviewed prior audit reports, standard operating procedures, and guidance to determine
       the authority, purpose, and concept of Camp Virginia RPAT operations;
      reviewed controls related to retail property accountability at the RPAT yard; and
      interviewed key personnel at the Camp Virginia RPAT yard and physically observed
       RPAT operations.

We also reviewed sections of the Federal Property Management Regulation; Federal Acquisition
Regulations; Army regulations, memoranda, and pamphlets; and DoD instructions and manuals.
We reviewed U.S. Forces-Iraq and 1st Theater Sustainment Command Fragmentary Orders and
an agreement between the United States and the Republic of Iraq. We obtained and analyzed
statistics maintained by the 541st Combat Sustainment Support Battalion on the number of units
that processed through the Camp Virginia RPAT and the days required to clear the units’
property book.

Use of Computer-Processed Data
In performing our review, we relied on computer-processed data from three automated systems:
TPE Planner, PBUSE, and AWRDS. However, we did not rely on computer-processed data as
the primary support for our conclusions. Therefore, we did not evaluate the sufficiency or
reliability of the data in any automated system.

Prior Coverage
During the last 5 years, the GAO, DoD IG and the Army Audit Agency issued seven reports on
the Drawdown of U.S. forces from Iraq, Drawdown retrograde operations, and RPATs.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports. Unrestricted Army Audit
Agency reports can be accessed at https://www.aaa.army.mil/.

GAO
GAO-11-774, “Iraq Drawdown: Opportunities Exist to Improve Equipment Visibility,
Contractor Demobilization, and Clarity of Post-2011 DOD Role,” September 16, 2011



                                               9

GAO-08-930, “Operation Iraqi Freedom: Actions Needed to Enhance DOD Planning for
Reposturing of U.S. Forces from Iraq,” September 10, 2008

DoD IG
DoD IG Report No. D-2010-091, “DOD Needs to Improve Management and Oversight of
Operations at the Theatre Retrograde-Camp Arifjan, Kuwait,” September 30, 2010

Army Audit Agency
A-2011-0077-ALL, “Followup Audit of Retrograde Operations in Iraq: Class VII Theater
Provided Equipment,” April 12, 2011

A-2011-0063-ALL, “Redistribution Property Assistance Teams,” February 14, 2011

A-2010-0098-ALL, “Retrograde Operations in Southwest Asia: Donation and Transfer of Excess
Materiel and Supplies,” May 7, 2010

A-2010-0022-ALL, “Retrograde Operations Southwest Asia: Multi-Class Retrograde Camp
Arifjan, Kuwait,” December 7, 2009



We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).



                                                 Amy J. Frontz
                                                 Principal Assistant Inspector General
                                                    for Auditing




                                                10 

11 

